APPENDIX

A-1

Case: 18-12104

Date Filed: 03/10/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12104
Non-Argument Calendar
________________________
D.C. Docket No. 6:17-cr-00237-PGB-KRS-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
BAKARI MCCANT,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(March 10, 2020)
Before JORDAN, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:
Bakari McCant appeals his conviction for brandishing a firearm during a
crime of violence—an attempted Hobbs Act robbery. He argues that his

Case: 18-12104

Date Filed: 03/10/2020

Page: 2 of 9

conviction for attempted Hobbs Act robbery does not qualify as a “crime of
violence” under 18 U.S.C. § 924(c)(3)(A)’s “elements clause.” Because our
court’s binding precedent expressly forecloses McCant’s argument, we affirm.
We review de novo whether a particular offense is a “crime of violence”
under 18 U.S.C. § 924(c). United States v. St. Hubert, 909 F.3d 335, 345 (11th
Cir. 2018), cert. denied, 139 S. Ct. 1394 (2019). 1 Under our prior precedent rule,
“a prior panel’s holding is binding on all subsequent panels unless and until it is
overruled or undermined to the point of abrogation by the Supreme Court or by
this court sitting en banc.” United States v. Archer, 531 F.3d 1347, 1352 (11th Cir.
2008). We do not review arguments raised for the first time in a reply brief.
United States v. Benz, 740 F.2d 903, 916 (11th Cir. 1984).
Section 924(c) provides for a mandatory consecutive sentence for any
defendant who uses or carries a firearm during a crime of violence or a drugtrafficking crime. 18 U.S.C. § 924(c)(1). For the purposes of section 924(c),
“crime of violence” means an offense that is a felony and:
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or
1

When referring to St. Hubert, we refer to our panel decision in that case reported at 909 F.3d 335.
We recognize, of course, that the part of our opinion that applied Ovalles II was abrogated by the
Supreme Court’s decision in United States v. Davis, 139 S. Ct. 2319 (2019), insofar as it overruled
Ovalles II. However, the part of St. Hubert on which we rely here—namely, that an attempted
Hobbs Act robbery qualifies as a crime of violence under the elements clause of section 924(c)—
remains good law. See In re Cannon, 931 F.3d 1236, 1243 (11th Cir. 2019) (citing St. Hubert as
holding that attempted Hobbs Act robbery qualifies as a crime of violence under section
924(c)(3)(A)).
2

Case: 18-12104

Date Filed: 03/10/2020

Page: 3 of 9

(B) that by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course of
committing the offense.
Id. § 924(c)(3). The statute’s two sections are known as the “elements clause,”
§ 924(c)(3)(A), and the “residual clause,” § 924(c)(3)(B). United States v. Davis,
139 S. Ct. 2319, 2324 (2019). The Supreme Court in Davis held that
section 924(c)(3)(B)’s residual clause is unconstitutionally vague. Id. at 2324–25,
2336. Nevertheless, in 2018, we held in St. Hubert, 909 F.3d at 351, that
attempted Hobbs Act robbery otherwise qualifies as a crime of violence under the
elements clause of section 924(c), an issue which Davis did not address.
Therefore, St. Hubert remains good law. See In re Cannon, 931 F.3d 1236, 1243
(11th Cir. 2019) (citing St. Hubert as holding that attempted Hobbs Act robbery
qualifies as a crime of violence under section 924(c)(3)(A)); see also In re Pollard,
931 F.3d 1318, 1321 (11th Cir. 2019) (holding that a Davis challenge is futile
when the crime for which the defendant was convicted satisfies the section
924(c)(3)(A) elements clause).
McCant raises several arguments in support of his conclusion that his
conviction for attempted Hobbs Act robbery does not qualify as a crime of
violence under section 924(c)(3)(A)’s elements clause. His core argument,
however, is that our decision in St. Hubert no longer constitutes good law. He
argues that St. Hubert’s conclusion that attempted Hobbs Act robbery constitutes a
3

Case: 18-12104

Date Filed: 03/10/2020

Page: 4 of 9

crime of violence has been abrogated because it is inconsistent with the Supreme
Court’s decision in James v. United States, 550 U.S. 192 (2007), overruled on
other grounds by Johnson v. United States, 135 S. Ct. 2551, 2563 (2015), as
recognized in United States v. Morales-Alonso, 878 F.3d 1311, 1320 (11th Cir.
2018). As a backup argument, he contends that, insofar as our prior-panel
precedent rule compels adherence to St. Hubert, it should be overruled. We
address each in turn.
First, McCant advances the argument that we are not bound by our decision
in St. Hubert, because it is contradicted by the Supreme Court’s decision in James,
or because a Seventh Circuit case relied on by the St. Hubert panel has since been
abrogated. McCant is incorrect.
In James v. United States, the Supreme Court held that Florida’s attempted
burglary statute qualified as a “violent felony” under the Armed Career Criminal
Act’s (“ACCA”) residual clause. 550 U.S. at 195 (holding that the ACCA’s
residual clause was unconstitutionally vague). McCant’s specific argument is that,
in James, the Supreme Court considered attempted burglary as its own independent
offense under state law, and noted that attempts under other statutes did not
constitute “violent felonies” under the residual clause because those attempts
“could be satisfied by preparatory conduct that does not pose the same risk of

4

Case: 18-12104

Date Filed: 03/10/2020

Page: 5 of 9

violent confrontation and physical harm posed by an attempt to enter a structure
illegally.” Id. at 204–05.
We think that McCant’s argument misreads the Supreme Court’s opinion in
James and that James is readily distinguishable from the case at hand. In James,
the Supreme Court looked at the Florida Supreme Court’s definition of what every
attempted burglary in Florida requires. See James, 550 U.S. at 202–03 (citing and
quoting Jones v. State, 608 So.2d 797, 799 (1992) for the proposition that
attempted burglary in Florida requires an “overt act directed toward entering or
remaining in a structure”). The Court concluded that Florida’s “[a]ttempted
burglary poses the same kind of risk” of “a face-to-face confrontation between the
burglar and a third party” because “[i]nterrupting an intruder at the doorstep while
the would-be burglar is attempting a break-in creates a risk of violent confrontation
comparable to that posed by finding him inside the structure itself.” Id. at 203–04.
Because James looked to Florida law to determine the category of elements of
Florida’s attempted burglary, and because the Florida definition is somewhat
different than the federal definition of attempted Hobbs Act burglary in St. Hubert,
what James says about the Florida law of attempted burglary does not undermine
at all what St. Hubert says about the federal definition of attempted Hobbs Act
robbery.

5

Case: 18-12104

Date Filed: 03/10/2020

Page: 6 of 9

James is also distinguishable in that it involved section 924(e)(2)(B)(ii)’s
residual clause, whereas St. Hubert involved section 924(c)(3)(A). The latter
specifically defines a “crime of violence” as including the attempted use of
physical force, whereas the former does not. In other words, the Court in James
was addressing whether Florida’s attempted burglary was a violent felony under
section 924(e)(2)(B)(ii)’s residual “serious potential risk of physical injury”
phrase, which—unlike section 924(c)(3)(A) in St. Hubert—had no explicit
inclusion of “attempted . . . use . . . of physical force.”2 Accordingly, our opinion
in St. Hubert is entirely consistent with the Supreme Court’s opinion in James. 3
McCant also argues that St. Hubert has been undermined or abrogated
because one of the cases it relies on, Hill v. United States, 877 F.3d 717 (7th Cir.
2017), has itself been abrogated. He argues that the Seventh Circuit’s subsequent

2

We also note that James was not presented with an issue like the one addressed in St. Hubert.
The issue in James, as stated by the Court, was “whether attempted burglary, as defined by Florida
law, falls within ACCA’s residual provision for crimes that ‘otherwise involv[e] conduct that
presents a serious potential risk of physical injury to another.” 550 U.S. at 197 (quoting
§ 924(e)(2)(B)(ii)). In James, “[t]he parties agree[d] that [Florida’s] attempted burglary does not
qualify as a ‘violent felony’ under [the elements clause in section 924)(e)(2)(B)(i)] because it does
not have ‘as an element the use, attempted use, or threatened use of physical force against the
person of another.’” Id. (quoting § 924(e)(2)(B)(i)). And the Court noted that it did not fall under
the enumerated clause. Id. Put yet another way, James involved the residual clause, not the
elements clause. Our case involves the elements clause—which St. Hubert determined is satisfied
by attempted Hobbs Act robbery—not the residual clause. Its holding, therefore, does not cast
doubt on St. Hubert’s.
3

We note that St. Hubert was issued nearly a decade after James. Although James was not cited
in St. Hubert, we assume the panel was aware of James and found it distinguishable as we do
today.
6

Case: 18-12104

Date Filed: 03/10/2020

Page: 7 of 9

opinion in United States v. D.D.B., 903 F.3d 684 (7th Cir. 2018), undermined its
opinion in Hill. We disagree. Though it is true that the St. Hubert panel relied on
Hill, we treat our sister circuits’ decisions as persuasive, not binding, authority.
That another circuit’s opinion, once viewed as persuasive to our court, has been
undermined, abrogated, or overruled does not necessarily damage the logical chain
we used to arrive at our conclusion. And in any event, the Seventh Circuit in
D.D.B. pointed out that, with respect to some completed crimes, the attempt
version does not require proof of intent to commit every element of the completed
crime. 903 F.3d at 693. In D.D.B., for example, the Seventh Circuit reiterated the
court’s holding in Hill—that “conviction of attempt requires proof of intent to
commit all elements of the completed crime,” id. at 690 (quoting Hill, 877 F.3d at
719 (emphasis in D.D.B.)—but noted that it did not apply to attempted robbery
under Indiana law. Id. at 690–91. The Seventh Circuit noted that Indiana’s
definition “of attempted robbery does not require intent.” Id. at 691. Accordingly,
“the reasoning of Hill does not apply.” Id. at 693.
However, the case at hand and St. Hubert involve an attempted violation of
the Hobbs Act, which does require an intent to commit all elements of the
completed crime. See St. Hubert, 909 F.3d at 351 (“The intent element of a federal
attempt offense requires the defendant to have the specific intent to commit each
element of the completed offense.”); see also id. at 352 (“[A] completed Hobbs
7

Case: 18-12104

Date Filed: 03/10/2020

Page: 8 of 9

Act robbery itself qualifies as a crime of violence under § 924(c)(3)(A) and,
therefore, attempt to commit Hobbs Act robbery requires that [the defendant]
intended to commit every element of Hobbs Act robbery, including the taking of
property in a forcible manner.”). Accordingly, we think that the Seventh Circuit’s
opinion in D.D.B. does not cast doubt on our decision in St. Hubert.4
Second, we turn to McCant’s backup argument: He argues that we should
overrule our prior panel precedent rule. He raises this argument for the first time
in his reply brief, and therefore, we need not address this argument. See Benz, 740
F.2d at 916. But even if he had timely raised this argument, it would still be
unavailing. We understand that McCant makes this argument to preserve the issue
for further review by this court sitting en banc or by the Supreme Court. Fair
enough. But we are bound by our prior panel precedent rule, even as it relates to
the rule itself—that is to say, if it means anything at all, our prior panel precedent
rule means that we must apply our prior panel precedent rule here.
And having established that we are bound by our prior panel precedent rule,
we conclude that McCant’s challenge to his section 924(c) conviction is foreclosed

4

Additionally, we think that the government’s argument that D.D.B. simply clarified the Seventh
Circuit’s holding in Hill is sound. Though it merely cites an unpublished Seventh Circuit opinion
that D.D.B. “reiterated” Hill’s holding, see Desilva v. United States, 740 F. App’x 101, 102 (7th
Cir. 2018), our reading of D.D.B. yields a similar result. The court in D.D.B. merely clarified that
“the reasoning of Hill does not apply”—not that Hill’s reasoning was faulty—because the
assumptions and legal realities in play in Hill were not present with respect to the Indiana attempted
robbery statute in D.D.B. See D.D.B., 903 F.3d at 693.
8

Case: 18-12104

Date Filed: 03/10/2020

Page: 9 of 9

by our binding precedent that attempted Hobbs Act robbery constitutes a crime of
violence under the elements clause of § 924(c). See St. Hubert, 909 F.3d at 351.
“Unless and until [St. Hubert] is overruled or undermined to the point of
abrogation by the Supreme Court or by this court sitting en banc,” which has not
happened, it remains binding on all of our subsequent panels. See Archer, 531
F.3d at 1352.
For these reasons, we conclude that McCant’s conviction for an attempted
Hobbs Act robbery constitutes a crime of violence for the purposes of section
924(c)’s elements clause. His conviction is
AFFIRMED.

9

A-2

Case 6:17-cr-00237-PGB-KRS Document 101 Filed 01/26/18 Page 1 of 3 PageID 335

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
UNITED STATES OF AMERICA
VS.

CASE NO: 6:17-cr-237-Orl-40KRS

BAKARI MCCANT
/
ORDER
This cause is before the Court on Defendant Bakari McCant’s Motion to Dismiss
Count Six of the Indictment, (Doc. 91), and the Government’s Response in Opposition.
(Doc. 94). On January 17, 2018, the Defendant filed a waiver of his right to a jury trial,
(Doc. 95), and on January 19, 2018 the parties stipulated to a bench trial. (Doc. 96). Since
the bench trial is scheduled to commence on January 29, 2018, the Court, after reviewing
the Defendant’s motion and the Government’s response, entered an endorsed order
denying the motion to dismiss with this written order to follow. (Doc. 98).
I.

BACKGROUND
On October 4, 2017, a federal grand jury charged Defendant McCant in Counts

One and Two with Hobbs Act robbery, in violation of 18 U.S.C. § 9151. (Doc. 36). The
defendant is charged with using, carrying, and brandishing a firearm during and in relation
to a crime of violence; that is, the Hobbs Act robbery charged in Count Two, in violation
of 18 U.S.C. § 924(c). (Id.). Defendant McCant is charged in Count Four with conspiring
to commit Hobbs Act robbery, in violation of 18 U.S.C. § 1951. (Id.). Count Five alleges
attempt to commit Hobbs Act robbery, in violation of 18 U.S.C. § 1951. (Id.). Count Six is
another firearm offense brought pursuant to 18 U.S.C. § 924(c) which is predicated upon
the attempted Hobbs Act robbery alleged in Count Five. (Id.). Finally, the Defendant is

Case 6:17-cr-00237-PGB-KRS Document 101 Filed 01/26/18 Page 2 of 3 PageID 336

charged in Count Seven with being a felon in possession of a firearm or ammunition, in
violation of 18 U.S.C. § 922(g). (Id.).
The parties have submitted a stipulation to the Court wherein they agree that the
stipulated facts are sufficient to prove beyond a reasonable doubt that the Defendant is
guilty of Counts One through Five and Count Seven. (Doc. 96, p. 1). The Defendant does
not, however, stipulate that the offense of attempted Hobbs Act robbery, as alleged in
Count Five, is adequate to support the 18 U.S.C. § 924(c) offense averred in Count Six.
(Id.). The instant motion to dismiss challenges the constitutionality of the §924(c) residual
clause.
II.

ANALYSIS
The Defendant acknowledges that the Eleventh Circuit Court of Appeals has

previously resolved the issue before this court, holding in United States v. Ovalles, 861
F.3d 1257, 1263-65 (11th Cir. 2017) that the “risk-of-force” clause in 18 U.S.C. §
924(c)(3)(B) is not unconstitutionally void-for-vagueness.” (Doc. 91, p. 2, fn. 1). In Ovalles,
as here, the defendant argued that “§ 924(c)(3)(A)’s risk-of-force clause is ‘nearly
identical’ to the residual clause of the Armed Career Criminal Act (‘ACCA’) struck down
in Johnson [v. United States, 135 S. Ct. 2551, 2557 (2015)] as unconstitutionally vague…”
Id. at 1265. Both the Government and the Defendant agree that the Eleventh Circuit, in
Ovalles, held that the Supreme Court’s pronouncement in Johnson does not invalidate §
924(c)(3)(A)’s residual clause. (Doc. 91, p. 3; Doc. 94, p. 11).
While the Defendant argues that Ovalles was “wrongly decided” by the Eleventh
Circuit, this court is bound to follow and apply the law as interpreted by the Eleventh
&LUFXLW ,QIHULRU FRXUWV DUH VLPSO\ņDQG TXLWH SURSHUO\ņSURKLELWHG IURP VHFRQG JXHVVLQJ

2

Case 6:17-cr-00237-PGB-KRS Document 101 Filed 01/26/18 Page 3 of 3 PageID 337

the decisions of its Circuit Court. The Defendant does not attempt to distinguish the legal
issue presented in this case from that which the Eleventh Circuit confronted in Ovalles,
because the same issue was present in Ovalles. Rather, the Defendant presents
argument on why the Eleventh Circuit reached the incorrect result in Ovalles and why it
should have doomed the residual clause to the same fate which befell the residual clause
of the ACCA. This argument is better made to the Eleventh Circuit than to this court. 1
III.

CONCLUSION
For the aforementioned reasons, the Defendant’s Motion to Dismiss Count Six of

the Indictment, (Doc. 91), is DENIED.
DONE AND ORDERED in Orlando, Florida on January 26, 2018.

Copies furnished to:
Counsel of Record
Unrepresented Parties

1

While it is not necessary to resolve the instant motion, the Court agrees with the
conclusion reached in Morton v. United States, 2017 WL 1041568, at *4 (S.D. Fla. Mar.
2, 2017), that attempted Hobbs Act robbery qualifies as a crime of violence in that the
use-of-force clause encompasses attempted and threatened uses of force.

3

